No. 19-518

 

IN THE

Supreme Court of the Anited States

COLORADO DEPARTMENT OF STATE,

Petitioner,
v.

MICHEAL Baca, POLLY BACA, AND ROBERT NEMANICH,
Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit

BRIEF OF AMICUS CURIAE EAGLE FORUM
EDUCATION & LEGAL DEFENSE FUND
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,331 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 8, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
